U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michael Lawrence Williams v. United States of America,
S.Ct. No. 20-8316

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 10,
2021, and placed on the docket on June 15, 2021. The government’s response is due on July 15,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 16, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8316
WILLIAMS, MICHAEL LAWRENCE
USA

ADAM RYAN NICHOLSON
OFFICE OF THE PUBLIC DEFENDER
525 SOUTH GRIFFIN STREET
SUITE 629
DALLAS, TX 75235
ADAM_NICHOLSON@FD.ORG

